GR-40-98-026
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the Brevard County, Florida, Sheriff's Office
Grant No. 95-UL-WX-0007
 
GR-40-98-026
 
September 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services,
to the Brevard County, Florida, Sheriff's Office (grantee). The grantee received a
$375,000 grant to hire or rehire five additional sworn officers under the Universal Hiring
Program (UHP). The grantee also received a 
$750,000 supplement to the UHP grant to hire or rehire an additional 10 officers. The
purpose of the additional officers is to enhance community policing efforts.

In brief, our audit determined the grantee: 



Claimed unallowable total outlays of $33,436. However, the grantee also claimed a lower
      Federal share of costs than the Office of Justice Programs approved, resulting in a net
      underpayment of $4,344.




Submitted the Department Initial Report 163 days after the due date.




Submitted five of the nine required Financial Status Reports from 3 to 25 days after the
      due dates.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in the Appendix.
#####